of ~           r
                              CLOSEOUT FOR M94040019



       This case was brought to the attention-of OIG on April 19, 1994, by Dr.
program manager for the
r o g r a n l in the Directorate f                  o

                          . the thesis ,advisor. Dr. -had
recommendation and a co-sponsor statement in support of ~
                                                           r
                                                                                  -
                                                                    . The program manager told
OIG that she was concerned about a possible undisclosed financial conflict of interest on the part
                                                                      submitted a thesis advisor's
                                                                       r         . the applicant's,
                                                                                            0
minority postdoctoral fellowship application (the second proposal). Both the thesis advisor and
the applicant are in the Department of           a      m University.

        The program manager wanted to recommend the second proposal for an award but had
been told informally that the thesis advisor and the applicant were married. Neither the thesis
advisor nor the applicant had disclosed this information in the proposal. In recent years
increasing governmental and institutional elilphasis has been placed on scientists disclosing
potential or real financial conflicts of interests related to projects they are about to embark on.
It is generally expected that full disclosure will be made of any personal relationship a scientist
has with an individual for whom the scientist is providing a recommendation. In this case the
thesis advisor, as the spouse, stood to gain financially if the proposal were funded, but he had
failed to disclose his relationship with the applicant. However, neither the program
announcement nor the recommendation or sponsoring scientist forms accompanying it explicitly
request disclosure of conflicts of interest. One of the forms contains the questions, "How long
have you known the applicant?" and "In what capacities?" The program manager said she had
assumed that an individual responding to these questions would disclose marriage to or other
personal relationships with the applicant.

       OIG contacted the applicant and the thesis advisor and learned that they were in fact
married. Both the applicant and the thesis advisor said that they thought this information had
been disclosed in -the proposal. The applicant told OIG that she had submitted similar proposals
                  -



to the NSF                       -               3   Program (the first proposal), to Health and
Human Services (HHS) (the third proposal), and to one private foundation, and that the thesis
advisor had submitted recommendations supporting each proposal. She believed that the thesis
advisor had disclosed their personal relationship in those recommendations.

        OIG retrieved and reviewed the relevant records for the first and third proposal. The
first proposal was submitted one month before the second, which, in turn, was submitted a few


                                           Page 1 of 2                                       94- 19
                               CLOSEOUT FOR M94040019

days before the third proposal. The thesis advisor had disclosed his relationship with the
applicant in his subrnissions supporting the first and third proposals.

       When asked about the omission of the information in his recommendation in support of
the second proposal, the thesis advisor said that he had submitted his responses to the questions
on the first proposal's reco~nmendationfonn on sheets attached to that form. OIG noted that
following most of the questions on that form the thesis advisor had typed, "see attached sheet."
However, the thesis advisor said that he thought that, unlike NSF's requirements for the first
proposal, NSF required that the information he supplied in support of the second proposal be
typed on the form provided with that proposal's program announcement. He said that space
constraints imposed by the form required that he edit.and abbreviate the information he had
previously attached to the fonn provided with the first .proposal's program announcement. He
said that during the editing process he must have inadvertently deleted the disclosure of their
marriage. OIG noted that the infonnation submitted by the thesis advisor in support of the
second proposal was an abbreviated version of that submitted in support of the first proposal.
It was contained on the provided fonn, not on attached sheets.

        The program announcements for both NSF programs specify that "recommendations must
be prepared on the forms provided . . . ." OIG could find no basis for the thesis advisor's
impression that he was to use the form for his recommendation supporting the second proposal
but not for the recommendation supporting the first. The forms accompanying the two NSF
program announcements require similar information from the applicant and the individuals
submitting recommendations or sponsor statements. However, the stipend amounts and
allowances for research costs associated with the awards made for the first and second proposals
are very similar. OIG concluded that, if funded, either one of the two NSF proposals would
have provided the same potential financial gain to the thesis advisor. Thus there was no
compelling financial reason why the thesis advisor would have intentionally disclosed his
relationship in the first proposal, omitted it from the second, and then included it in the third
proposal.

         OIG concluded that, because the thesis advisor had disclosed his relationship with the
applicant in two NSF and HHS proposals, there was reasonable evidence to support the thesis
advisor's position that he had inadvertently omitted the infonnation from the fonn submitted in
support of the second proposal. At OIG's suggestion, the thesis advisor submitted a disclosure
letter to the program. At the program manager's request, the applicant had another individual
submit a recommendation, to substitute for the thesis advisor's. OIG concluded that the proposal
record had been corrected and there was insufficient substance to pursue this matter further.

       This case was closed.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG

                                          Page 2 of 2
